DOCKET NO.'
(See: Docket # 20-8176)

In The

Supreme Court of the United States

On Emergency Petition for Writ of Mandamus To: PNC Bank, N.A./The PNC
Financial Services Group, Inc. ("PNC")

IN RE: PETITION2 OF LESLIE WILLIS FOR WRIT OF MANDAMUS

Leslie Willis
P.O. Box 1153, Bowie, MD
Maryland 207183
lwillis222@Yahoo.Com

'See: Docket No. 20-8176
2 Also presented as a Motion for Writ of Mandamus, supplemental to Docket No. 20-8176, including any
'Petition for Panel Re-Hearing.'
3 Petitioner's last legal address. At this time, Petitioner is in Pittsburgh, PA. Petitioner is domiciled in Mar

ancRECEI
Del' 12 2021
OFFICE QF THE CLERK
SUPREME COURT US.

QUESTION PRESENTED

Whether the Court should issue a WRIT OF MANDAMUS to PNC Bank,
N.A. and The PNC Financial Services Group, Inc. ("PNC") to disclose, to Petitioner,
the Trust Instrument, Beneficiary Designation, and Safe Deposit Records of 'The
Trust for Annie Pearl White Willis' ("Trust"), held by PNC Bank, N.A./The PNC
Financial Service Group, Inc.

2

LIST OF PARTIES
Leslie Willis, Petitioner4
PNC Bank, N.A./The PNC Financial Services Group, Inc. ("PNC"),5
Respondents

RELATED6 CASES

Petitioner's 'Petition for Writ of Certiorari,'' (Docket #20-8176) is currently
pending in this Court. On July 15, 2021, the Petition was Distributed for the
September 27, 2021 Conference. The Petition for Certiorari involves fundamental,
substantive, Constitutional rights to property (Due Process Clause' and 'Petition
Clause').

Petitioner's has also filed an 'Emergency Petition for Writ of Prohibition to
The District Court for the Western District of Pennsylvania.'

Petitioner is proceeding pro se and in forma pauperis in this Court.
William S. Demchak, President, Chairman, and Chief Executive Officer.
6 Other Petitions filed by Petitioner in this Court.
Due to Covid-19 law library closures during the preparation of the May 3, 2021 'Petition for Writ of Certiorari,'
and due to pending Court matters (i.e. 'Petition for Writ of Mandamus' and 'Petition for Writ of Prohibition' in this
Court; and 'Petition to Perpetuate the Trust for Annie Pearl (White) Willis' in the District Court for the Western
District of Pennsylvania, Docket # 20-1833), Petitioner has not been able to fully present the 'Petition for Writ of
Certiorari.' If Petitioner's Petition for Writ of Certiorari, Docket #20-8176, is not reviewed on the merits by the
Court, Petitioner intends to file a 'Petition for Panel Re-Hearing.'

4
5

3

TABLE OF CONTENTS
OPINIONS BELOW

5

JURISDICTION

6

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

7-8

STATEMENT OF THE CASE

9

REASONS FOR GRANTING THE WRIT

11

CONCLUSION

15

INDEX TO APPENDICES ("EXHIBITS")
(See Attached)

TABLE OF AUTHORITIES
(See Attached)

4

INDEX TO APPENDICES ("EXHIBITS")
For S.CT. Petition for Writ of Mandamus to PNC

Appendices are filed online' in the District Court for the Western District of
Pennsylvania, Docket # 20-01833 ("ECF No." is Document Number):

ECF No. 70 — re: Required/Interested Parties

6

ECF No. 32.7 - Internal Revenue Service (IRS) Letter

9

ECF No. 14.1 — Joint Account 'Schedule F' for PNC Checking Account
10

held at PNC)

ECF No. 31.9 — Letter 2013 from PNC requesting person authorized to
10

receive information regarding Annie Pearl Willis's accounts

ECF No. 32.11 - Email from PNC Associate Attorney, Bridget Daley, re:
Dolores Willis may contact her regarding the Trust) (See Also: ECF No
11)

10

ECF No. 11 - Family Email (Redacted) Showing Trust Concealed

10

ECF No. 126 - Second Amended Petition; and Exhibits at ECF No. 129 ...

10

ECF Nos. 33.7; 124; and 128, 8-20-2021 - Declaration of Leslie Willis as Heir,
Legacy, Beneficiary, Devisee of The Estate of Annie Pearl Willis

11

ECF No. 131 — Declarations Intent to File Actions for Declaration of Rights ... 11

1 Petitioner,

proceeding in forma pauperis, does not have adequate funds to print and mail documents.

TABLE OF AUTHORITIES
For S.CT. Petition for Writ of Mandamus to PNC

CASE LAW

PAGE

Noonan Estate, 361 Pa. 26, p.27 and p. 29 (Pa. 1949) - Executors, as well as other
fiduciaries, are under an obligation to make full disclosure to beneficiaries
respecting their rights and to deal with them with utmost fairness... "the executor
breached [her] duty to the beneficiary by withholding from [her] material
information which [she] sought and to which [she] was entitled ... Without regard
for the rights of the beneficiary whose desire to pay the decedent's debts and retain
the realty (whereof [she] was the sole devisee) was arbitrarily and even deceptively
ignored by the executor."

8, 13

Polanco Estate (no. 1) 80 pa. D. & c. 436 (see p. 438-439) — "It would seem that the
personal estate is still the primary fund for payment of debts and that a personal
representative cannot simply, for the sake of his own whim or desire, embark upon
disposing of decedent's real estate in total disregard of the rights and interests of
the heirs or devisees" — "non[-] assenting heir is willing to accept distribution of the
real estate in kind.

9, 12

CONSTITUTIONAL PROVISIONS
This 'Petition for Writ of Mandamus' is filed in support of the Actions for
Declaration of Rights' that Petitioner intends to file in this Court, in aid of the

1 Action

for Declaration of Rights to the 'Trust for Annie Pearl (White) Willis,' and Action for Declaration of Rights
to real estate located in Allegheny County, Pennsylvania, 267 William Street, Pittsburgh, PA. 15203
(Block/Lot/Parcel ID # 4-H-229).

1

TABLE OF AUTHORITIES
For S.CT. Petition for Writ of Mandamus to PNC

Court's subject-matter jurisdiction of Petitioner's Actions in Federal Court, which
involve the following Constitutional2 provisions pertaining to real estate property:
U.S.C.A. Const. Amend. Xiv, § 1- Due Process Clause

3, 7

U.S.C.A. Const. Amend. I — Petition Clause - right to Petition the
Government for redress of grievances

3, 7

U.S.C.A. Const. Amend. Xiv, § 1- Equal Protection Clause of the Fourteenth
Amendment (Section 1) of the United States Constitution

3, 7

STATUTES
28 U.S. Code § 1651 — Writs

6, 7

28 U.S. Code § 1367(a) - Supplemental Jurisdiction

6

28 U.S.C. § 2201(a) — Creation of Remedy

6, 8

42 Pa. C.S. § 7533 - Construction of documents

10, 11

RULES
Fed.R.Civ.P. 19 (a)(1) (A); and (B)(i) — Required Joinder of Parties. In aid of the
Court's Jurisdiction as to the Trust and the Real Estate

2

6, 9

See: Petition for Writ of Certiorari, Docket #20-8176, p. 12-13; and otherwise, Petition for Re-Hearing.
2

IN THE SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF MANDAMUS

Petitioner respectfully prays that a Writ of Mandamus issue to PNC Bank, N.A./The
PNC Financial Services Group, Inc. ("PNC").

OPINIONS BELOW
This Petition for Writ of Mandamus to PNC Bank, N.A. and The PNC
Financial Services Group, Inc. ("PNC"),8 is not a review of an Opinion below (But
See: Petitioner's 'Petition for Writ of Prohibition' to the District Court for the
Western District of Pennsylvania' filed in this Court).

8 William S. Demchak, President, Chairman, and Chief Executive Officer.
5

JURISDICTION

The Supreme Court jurisdiction is invoked, herein, pursuant to Fed.R. App.P
Rule 21, 28 U.S. Code § 1651 — Writs;9 and/or pursuant to § 1367(a) - Supplemental
Jurisdiction. The Court's relevant equity powers are invoked.
This 'Petition for Writ of Mandamus' is filed in support of the Action for
Declaration of Rights to real estate property that Petitioner intends to file in this
Court, in aid of the Court's subject-matter jurisdiction pursuant to Fed.R.Civ.P. 19 Required Joinder of Parties.19 For instance, here, as to parties in Actions involving
real estate property, which is the subject-matter of: (1) the 'Petition for Writ of
Certiorari;' or (2) a 'Petition for Panel Re-hearing;' and/or (3) the post-judgment
Motions that Petitioner intends to file in the Court of Appeals for the Third Circuit;
or (4) in the event of further proceedings in the District Court for the Western
District of Pennsylvania.

28 U.S. Code § 1651 - "(a) The Supreme Court and all courts established by Act of Congress may issue all writs
necessary or appropriate in aid of their respective jurisdictions and agreeable to the usages and principles of
law...;" 28 U.S.C. § 2201(a) "In a case of actual controversy within its jurisdiction ...any court of the United States,
upon the filing of an appropriate pleading, may declare the rights and other legal relations of any interested party
seeking such declaration, whether or not further relief is or could be sought. Any such declaration shall have the
force and effect of a final judgment or decree and shall be reviewable as such."
10 Fed.R.Civ.P. 19 (a)(1) (A); and (6)(i). See also District Court for the Western District of Pennsylvania Docket No.
20-1833, ECF Document No. 70)
9

6

CONSTITUTIONAL PROVISIONS
This 'Petition for Writ of Mandamus' is filed in support of the Actions for
Declaration of Rights" that Petitioner intends to file in this Court, in aid of the
Court's subject-matter jurisdiction of Petitioner's Actions in Federal Court, which
involve the following Constitutional provisions pertaining to real estate property:
U.S.C.A. Const. Amend. Xiv, § 1- Due Process Clause;
U.S.C.A. Const. Amend. I — Petition Clause - right to Petition the government
for redress of grievances;
U.S.C.A. Const. Amend. Xiv, § 1- Equal Protection Clause of the Fourteenth
Amendment (Section 1) of the United States Constitution;

STATUTORY PROVISIONS
28 U.S. Code § 1651 - "(a) The Supreme Court and all courts established by Act of
Congress may issue all writs necessary or appropriate in aid of their respective
jurisdictions and agreeable to the usages and principles of law...;"

for Declaration of Rights to the 'Trust for Annie Pearl (White) Willis,' and Action for Declaration of Rights
to real estate located in Allegheny County, Pennsylvania, 267 William Street, Pittsburgh, PA. 15203
(Block/Lot/Parcel ID # 4-H-229).

11 Action

7

28 U.S.C. § 2201(a) - Creation of remedy (i.e. Declaration of Rights) - "In a case of
actual controversy within its jurisdiction ...any court of the United States, upon the
filing of an appropriate pleading, may declare the rights and other legal relations of
any interested party seeking such declaration, whether or not further relief is or
could be sought. Any such declaration shall have the force and effect of a final
judgment or decree and shall be reviewable as such."
42 Pa. C.S. § 7533 - Any person interested under a deed, will, written contract, or
other writings constituting a contract, or whose rights, status, or other legal
relations are affected by a statute, municipal ordinance, contract, or franchise, may
have determined any question of construction or validity arising under the
instrument, statute, ordinance, contract, or franchise, and obtain a declaration of
rights, status, or other legal relations thereunder.
CASE LAW
Noonan Estate, 361 Pa. 26, p.27 and p. 29 (Pa. 1949) - Executors, as well as other
fiduciaries, are under an obligation to make full disclosure to beneficiaries
respecting their rights and to deal with them with utmost fairness... "the executor
breached [her] duty to the beneficiary by withholding from [her] material
information which [she] sought and to which [she] was entitled ... Without regard
for the rights of the beneficiary whose desire to pay the decedent's debts and retain
the realty (whereof [she] was the sole devisee) was arbitrarily and even deceptively
ignored by the executor."

8

Polanco Estate (no. 1) 80 pa. D. & c. 436 (see p. 438-439) — "It would seem that the
personal estate is still the primary fund for payment of debts and that a personal
representative cannot simply, for the sake of his own whim or desire, embark upon
disposing of decedent's real estate in total disregard of the rights and interests of
the heirs or devisees" — "non[-] assenting heir is willing to accept distribution of the
real estate in kind.12
RULES
Fed.R.Civ.P. 19 (a)(1) (A); and (B)(i)

STATEMENT OF THE CASE

1. The Internal Revenue Service (IRS) identified a 'Trust for Annie Pearl
(White) Willis'("Trust") 13 (See: 'Petition of Leslie Willis to Perpetuate
Evidence of the Trust for Annie Pearl (White) Willis,' filed in the District
Court for the Western District of Pennsylvania, Docket # 20-01833, ECF No.
32.7 - Internal Revenue Service (IRS) letter14 indicating "The Trust for Annie

Petitioner, an Heir, Legacy, Beneficiary, and Devisee of the Estate, reserves all of her rights regarding and
relating to the real estate of the Estate.
13 Annie Pearl (White) Willis (or "Annie Pearl Willis," or "Annie P. Willis") is Petitioner's Grandmother, deceased
November 20, 2010; Estate opened January 20, 2011; Letters Testamentary granted to Dolores Willis, Annie Pearl
(White) Willis's daughter, Petitioner's Aunt. Petitioner is an Heir, Legacy, Beneficiary, and Devisee of the Estate,
and the first born of Annie Pearl (White) Willis' son, John Arthur Willis, Sr. (pre-deceased).
14 Petitioner is not authorized to obtain the Trust documents from the Internal Revenue Service (IRS).
12

9

Pearl (White) Willis").16 The Trust involves substantial Trust funds and real
estate assets.
Petitioner is an Heir, Legacy, Beneficiary, and Devisee of the Estate of Annie
Pearl Willis', and has a legal right pursuant to 42 Pa. C.S. § 753316 to a
determination of rights to The Trust for Annie Pearl White Willis' ("Trust")
(See: District Court Docket # 20-01833, ECF No. 128, 8-20-2021). (Petitioner
believes that she is the sole beneficiary17 of the Trust)
Annie Pearl (White) Willis did her banking with PNC Bank, N.A. and The
PNC Financial Services Group, Inc. (Exhibit ECF No. 14.1 — Joint Account
`Schedule F' document for PNC Checking Account held at PNC); (Exhibit:
ECF No. 31.9 — Letter 2013 from PNC requesting person authorized to
receive information regarding Annie Pearl Willis's accounts); (Exhibit: ECF
No. 32.11 - Email from PNC Associate Attorney, Bridget Daley, re: Dolores
Willis may contact her regarding the Trust).
PNC Bank, N.A. and The PNC Financial Services Group, Inc. have custody,
control, and possession of the Trust.

is References,

herein, to Exhibits are filed in the District Court for the Western District of Pennsylvania (Docket #
20-01833). See ECF No. 126-Second Amended Petition; and ECF No. 129, Exhibits. Petitioner, proceeding in forma
pauperis, does not have funds, at this time, to print and mail documents. Petitioner files this Petition for Writ of
Mandamus in the interest of time, prior to the September 27, 2021 Conference in this Court, and for a direct
response from PNC Bank, N.A. and The PNC Financial Services Group, Inc. to disclose the Trust documents to
Petitioner.
42 Pa. C.S. § 7533 - Any person interested under a deed, will, written contract, or other writings constituting a
contract, or whose rights, status, or other legal relations are affected by a statute, municipal ordinance, contract,
or franchise, may have determined any question of construction or validity arising under the instrument, statute,
ordinance, contract, or franchise, and obtain a declaration of rights, status, or other legal relations thereunder.
17 Petitioner reserves all of her rights regarding and relating to the Trust and the real estate at 267 William Street.

16

10

5. PNC Bank, N.A. and The PNC Financial Services Group, Inc. have held the
Trust for almost 11 years, to date (See fn #5), without disclosure of the Trust
to Petitioner, while collecting fees on the Trust.

REASONS FOR GRANTING THE WRIT
Petitioner is an Heir, Legacy, Beneficiary, and Devisee of the Estate of Annie
Pearl Willis', and has a legal right pursuant to 42 Pa. C.S. § 753318 to a
determination of rights to The Trust for Annie Pearl White Willis' ("Trust")
(See: District Court Docket # 20-01833, ECF No. 128, 8-20-2021). (Petitioner
believes that she is the sole beneficiary19 of the Trust)

Petitioner intends to present, in this Court, an Action for Declaration of
Beneficiary Rights to the 'Trust for Annie Pearl (White) Willis'("Trust"); and
an Action for declaration of rights to real estate located in Allegheny County,
Pennsylvania, at 267 William Street, Pittsburgh, Pennsylvania, 15203
(Lot/Blk/Parcel ID# 4-H-229) ("real estate").20 (Exhibits ECF No. 131 —
Declarations of Intent to File Actions for Declaration of Rights). However,
Petitioner cannot do so without, at least, the Trust Instrument and the

28 42 Pa. C.S. § 7533 - Any person interested under a deed, will, written contract, or other writings constituting a
contract, or whose rights, status, or other legal relations are affected by a statute, municipal ordinance, contract,
or franchise, may have determined any question of construction or validity arising under the instrument, statute,
ordinance, contract, or franchise, and obtain a declaration of rights, status, or other legal relations thereunder.

19

Petitioner reserves all of her rights regarding and relating to the Trust and the real estate at 267 William Street.

20

See footnote #7 re: 42 Pa. C.S. § 7533.
11

Beneficiary Designation disclosed, at least initially, to Petitioner, and also
the Safe Deposit Records for the Trust.
The Trust disclosed, would provide evidence that the Trust exists, and
evidence of the Trust Beneficiary; as well as evidence relating to the
circumstances of the sale of the real estate (e.g. evidence that the Trust funds
were withheld from Petitioner at the time of sale of the real estate;21 evidence
of breach of fiduciary duty; and evidence pertaining to aiding and abetting a
breach of fiduciary duty as to the real estate); and would also make funds
available for Petitioner to proceed with an Attorney, in this Court; and/or in
post-judgment motions that she, otherwise, intends to file in the Court of
Appeals for the Third Circuit; and/or in the event of further proceedings in
the District Court for the Western District of Pennsylvania.
Petitioner believes the situs of the Trust is in Pittsburgh, Pennsylvania.22
Therefore, PNC would not be burdened in compliance with a request for
disclosure of the Trust Instrument and the Beneficiary Designation of the
Trust nor of the Safe Deposit Records of the Trust to Petitioner at PNC or at
the office of the PNC attorney, because the Trust documents are held at PNC
Bank, N.A./The PNC Financial Services Group, Inc. ("PNC").

21 Polanco Estate (no. 1) 80 pa. D. & c. 436 (see p. 438-439) —"It would seem that the personal estate is still the
primary fund for payment of debts and that a personal representative cannot simply, for the sake of his own whim
or desire, embark upon disposing of decedent's real estate in total disregard of the rights and interests of the heirs
or devisees" —"nonHassenting heir is willing to accept distribution of the real estate in kind.
22 At this time, Petitioner is in Pittsburgh, PA. The PNC Financial Services Group is incorporated in Pennsylvania,
and is based in Pittsburgh, Pennsylvania. PNC Bank, National Association is a banking subsidiary of The PNC
Financial Services Group with its principal place of business in Pittsburgh, Pennsylvania.
12

6. Dolores Willis, Executrix for the Estate of Annie Pearl Willis, has a duty23 to
disclose the Trust to Petitioner. If necessary, Dolores Willis, is authorized to
request disclosure of the Trust documents from PNC.

WHEREFORE, Petitioner, Leslie Willis, respectfully, prays that this Court
issue a WRIT OF MANDAMUS to PNC Bank, N.A. and The PNC Financial
Services Group, Inc. ("PNC") to disclose the Trust Instrument and Beneficiary
Designation of 'The Trust for Annie Pearl White Willis' ("Trust"), held by PNC
Bank, N.A./The PNC Financial Service Group, Inc., to Petitioner at the office of the
Associate Attorney for PNC, Bridget Daley, on November 3, 2021 at 1:35 p.m.;' OR
at the location of The PNC Financial Services Group, Inc., at 300 Fifth Ave. The
Tower at PNC Plaza, Pittsburgh, PA 15222-2401 on November 3, 2021 at 1:35p.m.

WHEREFORE, Petitioner, Leslie Willis, respectfully, prays that this Court
issue a WRIT OF MANDAMUS to PNC Bank, N.A. and The PNC Financial
Services Group, Inc. ("PNC") to disclose the Safe Deposit Records of The Trust for
Annie Pearl White Willis' ("Trust"), held by PNC Bank, N.A./The PNC Financial
Service Group, Inc., to Petitioner at the office of the Associate Attorney for PNC,
Bridget Daley, on November 3, 2021 at 1:35 p.m.;' OR at the location of The PNC

23 Executors, as well as other fiduciaries, are under an obligation to make full disclosure to beneficiaries respecting
their rights and to deal with them with utmost fairness... "the executor breached [her] duty to the beneficiary by
withholding from [her] material information which [she] sought and to which [she] was entitled ... Without regard
for the rights of the beneficiary whose desire to pay the decedent's debts and retain the realty (whereof [she] was
the sole devisee) was arbitrarily and even deceptively ignored by the executor." Noonan Estate, 361 Pa. 26, p.27
and p. 29 (Pa. 1949).
13

Financial Services Group, Inc., at 300 Fifth Ave. The Tower at PNC Plaza,
Pittsburgh, PA 15222-2401 on September 20, 2021 at 1:35 p.m.

WHEREFORE, Petitioner, Leslie Willis, respectfully, moves the Court to
SEAL the Trust documents, if filed in this Court; and requests that the Court
caution, instruct, and DIRECT or ORDER all Parties and their Counsel not to
disclose to anyone the contents of the Trust; not to use the Trust documents or
information for any purpose other than in connection with the Actions for
Declaration of Rights; and upon termination of the Actions for Declaration of
Rights, return all Trust documents and information as appropriate.

WHEREFORE, Petitioner, Leslie Willis, respectfully, prays that if this
Petition/Motion is Denied by the Clerk, by a single Judge, or by limited Panel, that
the Petition/Motion is considered by the Court En banc; and that, in any event,
under the circumstances, the Motion is not Denied with prejudice.

I declare under penalty of perjury that the foregoin
Executed on September 20, 2021
/s/Leslie Willis, Petitioner

14

CONCLUSION
The Writ of Mandamus to PNC Bank, N.A. and The PNC Financial Services Group,
Inc. ("PNC") should be granted.

Respectfully

itted,

/s/Leslie Willis, Petitioner
Date: September 20, 2021

15

PROOF OF SERVICE

required by Supreme Court Rule 29 I have served the enclosed 'Emergency Petition
for Writ of Mandamus To: PNC Bank, NA./The PNC Financial Services Group, Inc.
("PNC")' on each party to the above proceeding or that party's counsel, and on every
other person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and with
first-class postage prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calendar days.
The names and addresses of those served are as follows:
Bridget J. Daley, (Email)
Associate, Buchanan Ingersoll & Rooney, PC
For William S. Demchak, President and Chief Executive Officer,
PNC Bank, The PNC Financial Services Group, Inc.
Union Trust Building, 501 Grant Street, Suite 200, Pittsburgh, PA 15219-4413
412 562 8304 (o); 814 931 4875 (c)

Dolores Willis (First Class Mail)
206 Everglade Drive
Pittsburgh, PA. 15235

16

